No. 20-1523
In the
Supreme Court of the United States

Rolando Cruz, Jr.,
Marc Hernandez, and
Roscoe Villega,
Petitioners,
v.
United States of America,
Respondent,
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit
CERTIFICATE OF SERVICE WITH FILING BY MAIL
Pursuant to this Court’s Rules 29.2 and 29.5(b), I hereby certify that I am a
member of the Bar of this Court, representing Respondent, Anthony Sistrunk. I
further certify the following:
1. On May 18, 2021 and within the time permitted by the Rules of this Court, I
mailed a single copy of the enclosed Brief of Respondent, Anthony Sistrunk, in
Support of Petition for Writ of Certiorari for filing, and related documents
printed in 8½” x. 11” paper and formatted under this Court’s Rule 33.2, by

1

U.S.P.S., priority mail, postage prepaid and properly addressed to the Clerk of
this Court.
2. I emailed the same documents to supremectbriefs@usdoj.gov.
3. I further certify that on the same date, I served the same documents upon the
following persons in the manner set forth below:
a) Peter Goldberger, Esq., Counsel of Record for Petitioners, 50 Rittenhouse
Place, Ardmore, PA 19003, (610) 649-8200.
b) Tieffa Harper, Esq., Attorney for Petitioners via email addressed to
Tieffa_Harper@fd.org, (302) 573-6010.
c) Elizabeth D. Prelogar, Esq., Acting Solicitor General, Attorney for
Respondent, Room 5614, Department of Justice, 950 Pennsylvania Ave.,
N.W., Washington, D.C. 20530, (202) 514-2201;
d) Richard Maffett, Jr. Esq., Counsel of Record for Respondent Douglas Kelly,
via email addressed to RMaffettJr@aol.com, (717) 233-4160.
e) John F. Yaninek, Esq., Counsel of Record for Respondent, Maurice
Atkinson, via email addressed to JYaninek@tthlaw.com, (717) 441-3952,
f) Respondent, Anthony Sistrunk, #72326-067, Open in Presence of the
Inmate, USP Pollock, PO Box 2099, Pollock, LA 71467.
4. As a result, I certify that pursuant to this Court’s Rule 29.5, all parties required
to be served, have been served.
Respectfully submitted,
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com
Attorney for Respondent
Anthony Sistrunk

2

